5187
No.
!

IN THE

SupremTcouTuTs"
FILED

SUPREME COURT OF THE UNITED STATES

JUL J3 2021
2£s^2£Iheclerk

PATRICIA A. MCCOLM, Petitioner,
V.

TRINITY COUNTY; et. al, Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

ON PETITION FOR WRIT OF CERTIORARI

PATRICIA A. MCCOLM
P.O. Box 113
Lewiston, California 96052
(415)333-8000
i U!i

QUESTIONS PRESENTED

1. To avoid erroneous deprivation of constitutional rights, including right of access to
the court; should this Court determine that pro se plaintiff’s with severe limitations of disability
and/or stigma of self representation prejudicing compliance with court processes, receive
accommodations appropriate to his/her limitations of disability and/or appointment of counsel to
assist in addressing the demands of court processes rather than suffer a dismissal with prejudice
to avoid such accommodations/leave to amend and/or to avoid indicia of discriminatory bias.

2. Should the Ninth Circuit have decided the motion for appointment of counsel timely
filed by petitioner with severe acute medical conditions and permanent limitations of disability
seeking assistance with the pre-filing process and appeal, prior to issue of an Order dismissing
the appeal for allegedly stating “insubstantial” issues on appeal.

3. Whether a review of petitioner’s submission of district court orders on appeal and
statement of facts or law which are relied upon for purposes of the appeal are in good faith,
“merit further review,” and should have been filed pursuant to 28 U.S.C. 1915.

4. Did the Ninth Circuit err in alleging pursuant to a 20 year old pre-filing order, that the
issues on appeal are “insubstantial denying further review; thereby, sustaining a wrongful
dismissal with prejudice without leave to amend where the facts/law on the merits of any cause
in the FIRST amended complaint were NOT considered, where petitioner’s motion for

l

appointment of counsel to accommodate limitations of disability for timely compliance with
medically impossible demands of the court was denied, where the complaint stated a claim upon
which relief could be granted and/or amended to state a claim was denied and where a dismissal
with prejudice without leave to amend was not proper pursuant to 28 U.S.C. 1915.

11

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

TABLE OF CONTENTS

.111

INDEX TO APPENDICES

.111

TABLE OF AUTHORITIES CITED

IV

OPINIONS BELOW

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE.

3

REASONS FOR GRANTING THE WRIT.

16

CONCLUSION

17

APPENDIX.

18

INDEX TO APPENDICES

APPENDIX A:

ORDER by Ninth Circuit that the Appeal is “DISMISSED” and “All
pending motions are denied as moot.”

APPENDIX B:

DENIED: Motion for Appointment of Counsel re PERMISSION to
Appeal and APPEAL with referenced Medical Verification 8/23/18.
i

ill

APPENDIX C:

JUDGEMENT IN A CIVIL CASE

APPENDIX D:

ORDER adopting U.S. Magistrate Judge Findings and Recommendations
re First Amended Complaint “DISMISSED with prejudice for failure to
state a claim”

APPENDIX E:

(1) U.S. Magistrate Judge FINDINGS AND RECOMMENDATIONS
with (2) “OBJECTIONS TO MAGISTRA TE JUDGE’S FINDING AND
RECOMMENDATIONS AND TO ORDER RE EXTENSION OF TIME”

APPENDIX F:

NOTICE OF APPEAL TO THE UNITED STATES COURT OF
APPEAL, NINTH CIRCUIT; WITH REQUEST FOR APPOINTMENT
OF COUNSEL PERMISSION & APPEAL. (Presented without
redundant exhibits above and others by request for Judicial Notice.)

i

i

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
The $§$!££ of the United States court of appeals appears at Appendix _A___to
the petition and is
[ ] reported at_______________________ _____________ . or
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
Q R DER
The qj}f5ti£$ of the United States district court appears at Appendix
the petition and is
[ ] reported at____________________ __________ _______ , ; or,
[ ] has been designated for publication but is not yet reported; or,
y is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at________ ___________________.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the __
court
appears at Appendix
to the petition and is
[ ] reported at ____________________ ______________ Qr
[ ] has been designated for publication but is not yet reported; or*
[ ] is unpublished.
1.

JL_ to
i
i

JURISDICTION
fci For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was FEBRUARY 16, 2021
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[X] An extension of time to file the petition for a writ of certiorari was granted
to and including JULY 16. 2021
(date) on March 19, 2020 (date)
in Application No. __ A General Order 589U.S.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

i

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Amendment I
United States Constitution, Amendment XIV
28 U.S.C. 1915
Americans With Disability Act (ADA)
P.L. 101-336,104 Stat. 327 (1990), 42 USC sec. 12101 et sec

STATEMENT OF THE CASE

Factual Background of Civil Rights Complaint;
Petitioner went to Trinity County to process her father’s probate estate as his executor in
2008. The Trinity County Superior Court building in its entirety was found to be inaccessible for
persons with disability. Bathroom facilities required electric mobility devices to remain outside
the entry door, which recoiled rapidly hitting persons with disability who had slowed mobility.
The court services offices were uninformed about ADA requirements and resistant with hostility
to expression by petitioner of concerns about the lack of access. Court clerks were verbally
abusive denigrating petitioner’s disabilities in response to requests for accommodations in court
services/processes failing to timely file accommodation requests and other time sensitive probate
claim and other critical documents necessary to avoid prejudice to claimants and the Estate.
Petitioner’s requests for timely filing and compliance with probate rules of court were ignored,
prompting complaint to judicial officers. Petitioner learned about an open position as the court
administrative officer, to which Petitioner sought to apply; only to be put off by age and
3

financial unavailability of the position; months later learning, that without notice and required
job search for the most qualified applicant, a judge appointed a reputed “girlfriend” to the
position.
A complaint to the California Department of Fair Employment and Housing resulted in
issue of a right to sue. Upon notice that petitioner had filed a DFHE complaint, Trinity County
and its Superior Court employees began a course of retaliatory harassment limiting ALL
communications with and access to court services, demanding an appointment be approved
before she could access court services, limiting time for obtaining court service, refusing to
timely file documents, alleging permission to file any and all documents was required,
demanding that all requests be put in writing, among numerous other abusive limitations
imposed without notice or hearing on any alleged cause for the interference with exercise of civil
rights. The unlawful restrictions proved prejudicial to pending litigation; in particular, to
frivolous litigation in which petitioner was a defendant.
When petitioner objected to the due process violations, petitioner was wrongfully charged
with frivolous criminal offenses in contravention of first amendment rights and other
constitutional rights; e.g. allegedly talking too loud in a public court building hallway allegedly
disturbing the peace in contravention of rights assured by In re Brown. The criminal charge was
used to unconstitutionally restrict access to court services as a “baiP’order, which was imposed in
violation of due process protections, an irrelevant and unlawful order. The case allowed
petitioner to discover that its jail facility was also not accessible to persons with disability and
that accommodation of disability was not available; only use of excessive force for seeking same.
It also allowed petitioner to discover that the only documents relied upon produced to the
4

defense were media comment containing false information re “vexatious litigant” defamation
from about 1995 creating the continuing prejudicial stigma therefrom. Said case was dismissed.
Petitioner filed the civil rights action in the Eastern District Court (2-12-cv-01984),
seeking constitutional protection including injunction against unlawful restriction on use of court
services and redress of other grievances suffered as stated in the causes of action therein; which
is the subject matter of instant case for which an appeal was properly sought by petitioner.
As threatened, for filing the civil rights case, Petitioner was subjected to more retaliatory
false criminal charges with appointment of incompetent counsel who failed to conduct discovery
or move the court for dismissals as appropriate; in particular, for retaliatory prosecution. The
second petition for writ of certiorari (20-16817) relates to the civil rights offenses arising out of
the prison term questionably imposed in essentially undefended retaliatory charges filed against
petitioner. The sheriff deputy taking petitioner to prison told her that the reason she was going to
prison was because she “Pissed offa lot ofpeople byfiling the civil rights complaint revealing
the judge’s affair with the court clerk” The clerk in question is the one who accused petitioner
of filing a false proof of service, even though petitioner did not sign the document or know that
any document was allegedly false by purported reason that it had her address thereon; instead of,
the address of the person serving same by mail. The judge orchestrating the retaliatory
prosecution was eventually publically admonished for misconduct by Judicial Council. He was
prohibited by Judicial Council from being a judge in the future.
Petitioner was told by an Asst. District Attorney that any crime committed against her
would NOT be investigated or prosecuted. Petitioner was asked why she would want to stay in
Trinity County where she would be repeatedly charged with criminal offenses until she left the
5

County.
The wrongs committed in violation of petitioner’s civil rights is appropriate for redress by
the District Court with appointment of counsel.

Procedural Background and Good Faith Cause to Appeal:

Petitioner is limited in time and ability to start over with new argument for statement of
the case; and thus, does request judicial notice of the argument presented in her Objections to
Magistrate Judge’s Findings and Recommendations, Appendix E(2) and in the Notice of Appeal,
Appendix F under Statement of Facts and Law on Appeal as follows:

“ABUSE OF DISCRETION / ERROR OF LAW: DENIAL OF LEAVE TO AMEND
AND DISMISSAL WITH PREJUDICE BASED ON UNFOUNDED
FACTS/AUTHORITY RE “FAILURE TO STATE A CLAIM” UNDER 28 U.S.C.
SECTION 1915: CONSTITUTIONAL VIOLATION / DENIAL OF ACCESS TO COURT
/ MANIFEST INJUSTICE RE APPEARANCE OF DISCRIMINATORY BIAS AGAINST
PRO SE PLAINTIFFS WITH DISABILITY AND/OR VEXATIOUS LITIGANT
“STIGMA” IN CASE WITH MERITORIOUS FACTS/CAUSE(S1 OF ACTION: AND,
DENIAL OF MOTION TO APPOINTMENT COUNSEL.

The FIRST AMENDED COMPLAINT (FAC) (ECF 38) filed May 13, 2018 in this
6

substantial in forma pauperis ADA/civil rights action was denied leave to amend and
DISMISSED WITH PREJUDICE (ECF 53) and Judgment (ECF 54) entered thereon October
15,2019 for “FAILURE TO STATE A CLAIM:” at the screening stage under 28 U.S.C. 1915;
in what appears to be abuse of discretion and error of law through prejudicial disregard of
authority under said statute and in contravention of approximately 140 pages of FACTS
supported by 19 pages of documentary evidence; INCORPORATED INTO THE COMPLAINT
as authorized by law, regarding each defendant relating directly to each of the 14 causes of action
set forth in the FAC upon which the action is based; which clearly show that the facts stated
constitute good cause to amend and constitute at least one cause of action that would work
against a dismissal of the action; in particular, “with prejudice.”
The facts with exhibits and each cause of action identifies with particularity the
defendant(s) to which each applies. The facts and causes show acts by defendants in
concert/agreement to knowingly violate plaintiffs constitutional and civil rights in retaliation for
plaintiffs protected conduct; in particular, the noticed right to sue letter issued by the California
Department of Fair Employment and Housing.
A full and complete reading of the FAC tends to indicate that the magistrate judge
findings and recommendations are not based on actual fact and authority; but appear to be based
on ire related to plaintiffs request to vacate the referral (The District Judge failed to rule on the
request to vacate the referral.) and/or discriminatory bias against pro se plaintiffs with disability
and/or vexatious litigant “stigma” from over 20 years ago, related to this particular plaintiff with
an apparent agenda designed to keep said class of persons and/or plaintiff out of the District
Court; as would tend to be indicated by an apparent failure to actually read the entire complaint
7

and/or misconstruing “cherry-picked” sentences attributed to only one cause of action, Section
1983, to questionably precipitate the dismissal. Even the causes under 1983 are not correctly
identified on the facts and grounds upon which the statute is applied. Remarkably, the magistrate
judge makes reference to Section 1983 comments regarding the original complaint, which are not
applicable to the FAC; in particular, as the FAC clearly shows the reference is to only to Section
1983 for the “linkage” argument without regard to the fact that the comments were essentially
erroneous in other parts by reason of failure to apply the law under the ADA. Thus, even the one
claim out of which each defendant arises is satisfied; in particular, as related to “series of
transactions or occurrences” and there is an ADA retaliation and constitutional “question of law
or fact common to all defendants.”
As set forth in the FAC under Jurisdiction on page 4, the FAC states: Plaintiff brings this
action under the American’s with Disability Act, 42 U.S.C. sections 12101,12203
RETALIATION et seq. as amended (“ADA”) for discrimination based upon disability, failure to
accommodate, failure to protect, and retaliation; Section 504 of the Rehabilitation Act of 1973,
as amended; 42 U.S.C. section 1985 (CONSPIRACY deprivation of civil rights); 42 U.S.C.
1986; 29 U.S. C. 626(c)(1) [Age Discrimination in Employment Act of 1967 et seq.]; 42 U.S.C.
section 12133 which incorporates the provisions of 29 U.S.C. section 794a, for violation of Title
II of the ADA; 42 U.S.C. 1983, Constitutional violations under the First, Fourteenth, Eighth
Amendments DENIAL OF DUE PROCESS, EQUAL PROTECTION, ACCESS TO THE
COURT; and violations of the California State Constitution, Civil Code sections 51,51.7,52.1,
52.3, 54 et seq., Government Code Section 12940(h) et seq. California State claims for
defamation/slander/misrepresentation, false arrest/imprisonment, assault and battery, intentional
8

and negligent infliction of emotional distress, negligence, invasion of privacy, violation of State
and Federal Public Records Acts; Intentional Interference with Economic
Advantage/Relationships and Conspiracy regarding all above stated causes.
Essentially, NONE of the above causes were actually subject to analysis by the magistrate
judge on the facts and authority related thereto and even the Section 1983 causes are not stated
correctly by the Magistrate Judge on the actual facts and causes to which the statute applies; as a
full reading of the FAC would show and raise a viable issue for adjudication. (See pages 60-64
re Fourth Cause of Action re Conspiracy to Interfere with Rights with specified Constitutional
Violations and pages 76-78 re Twelfth Cause of Action re malicious prosecution (retaliatory
arrest/false charges & Fourth Amendment violations).
In instant appeal, the constitutional violations running to the merits of the civil rights
complaint in this case, are not in issue; the District Court having made no factual/legal
determination on the merits of anv claim therein. No specific defendant was identified or
stricken on ground of immunity. Under the ADA and related statutes, the claim of immunity as
alleged by the Magistrate Judge under Section 1983 does NOT apply. They are arguably liable
under the facts of this case. No specific cause was identified or stricken as lacking merit. Based
on attorney practice manuals and authorities expressing requirements re fact and law, plaintiff is
informed and believes that the facts and law support each of the claims stated. And if there is a
defect, that notice thereof from the Court with leave to amend should have been granted.
The denial of leave to amend and dismissal with prejudice appears to be more likely
based on bias and/or limitations of disability; than any alleged “failure to state a claim.” Thus,
appointment of counsel would appear to have been appropriate throughout the process of the case
9

to avoid a dismissal.
Although no specific finding was made that any cause or the entire complaint was
“frivolous,” a dismissal with prejudice gives that erroneous impression; which should not have
issued in instant case.
Before a District Court may dismiss an informa pauperis complaint with prejudice, the
District Court must find that the plaintiff has engaged in “conscious or intentional acts or
omissions.” Harris v Cuyler, C.A.3 (Pa.) 1981, 664 F2d 388. There are no such findings in
instant case.
Pro se complaints must be liberally construed and can be dismissed only if face of
complaint shows insuperable bar to relief. Holt v Caspari, C.A.8 (Mo.) 1992, 961 F2d 1370.
Under Section 1915 a complaint should not be dismissed for failure to state a claim
unless it appears beyond doubt that the plaintiff could prove no set of facts in support of his/her
claim which would entitle him/her to relief. Montana v Commissioner Court, C.A. 5(Tex) 1981,
659 F2d 19.
An informa pauperis complaint can only be dismissed where there is indisputable
meritless legal theory or on clear baseless factual contentions. McClendon v Turner, W.D. Pa.
i

1991,765 F.Supp 251.
Nietzke, 490 U.S. 319 advises that a section 1915 dismissal is only proper if the legal
theory or the factual contentions lack an arguable basis indicating that the purpose of the in forma
pauperis statute is to ensure equality of consideration for all litigants. Plaintiff in instant case has
not been provided with equal consideration for all litigants; having been treated differently by
reason of her limitations of disability and “stigma.”
10

The general provisions of law under Section 1915 were not afforded to plaintiff. As
stated in plaintiffs motion under 59e/60b, which was NOT addressed properly as under 59e, the
following was argued:
“Although 28 U.S.C. section 1915 provides for dismissal of an action that is “frivolous,”
a district court may deem an in forma pauperis complaint “frivolous” only if it lacks an
arguable basis in either law or in fact: in other words, dismissal is only appropriate for a claim
based on an indisputable merit-less legal theory and the frivolousness determination cannot serve
as a fact finding process for the resolution of disputed facts. Fogle v Pierson, CA10 (Colo.)
2006, 435 F3d 1252, Milligan v Archuleta, CA10(Colo.) 2011, 659 F3d 1294. Accordingly,
where as in instant case, the Magistrate Judge made no determination on the facts/merits,
adopting the recommendation of dismissal with prejudice is error.
A dismissal with prejudice deprives plaintiff of her constitutional right to seek redress
from the court, which appears to be a biased Magistrate Judges’ intention, not based on fact or
law; but improper preconceived opinion, based on extrajudicial sources and/or hostile bias and
stigma against persons in plaintiffs protected class; and thus, a constitutional violation.
Were there anything the Court believed was in some way improper, then notice of intent
to strike some specific part is available and/or to amend. However, nothing has been specified
that would give notice of any defect subject to being stricken.
Attorney practice manuals, such as California Forms of Pleading and Practice and its
equivalent Federal pleading forms, regularly repeat essential element language of causes with the
different facts inserted. This does NOT make the claims/complaints “frivolous.” It only helps
practitioners evaluate the facts to insert them appropriately to meet the court’s pleading
11

requirements and jury instructions. On information and belief, plaintiff5 s causes meet both the
general form pleading requirements and have the facts necessary to prevail perjury instructions.
Court’s are in good faith, generally believed to protect citizens from harm, not give the
“green light” to further biased retaliatory abuse and prejudicial harm through “dismissal” of
citizen pleas for help; in order to allow the offenders to proceed with the intended abuse and
destruction intended toward one who had the courage to “stand up” to the discrimination, false
and defamatory representations/media comment, infliction of physical harm and emotional
distress, saying “no more!” PLEASE!

Error re Application of “Frivolous” to Dismiss:
As stated above, although 28 U.S.C. section 1915 provides for dismissal of an action that
is “frivolous,” a district court may deem an in forma pauperis complaint “frivolous” only if it
lacks an arguable basis in either law or in fact; in other words, dismissal is only appropriate
for a claim based on an indisputable merit-less legal theory and the frivolousness determination
cannot serve as a fact finding process for the resolution of disputed facts. Fogle v Pierson, CA10
(Colo.) 2006, 435 F3d 1252, Milligan v Archuleta, CA10(Colo.) 2011, 659 F3d 1294.
Accordingly, where as in instant case, the Magistrate Judge findings do not present analysis of
any fact/law per cause, adopting the recommendation of dismissal is error and an apparent abuse
of discretion.
Cornell Law School presents on line its Wex Legal Dictionary in which it defines
“frivolous:” In the legal context, a lawsuit, motion, or appeal that lacks any basis and is intended
to harass, delay or embarrass the opposition... Judges are reluctant to find an action frivolous,
12

based on the desire not to discourage people from using the courts to resolve disputes. It is
hoped this Court agrees and does not abide discrimination/retaliation implicating persons with
disability as “frivolous.” Fairness, impartiality, due process and equal protection should apply to
all “persons” as the Constitution mandates.

Error re Rendition bv Magistrate Judge of Prior Complaint and Amended Complaints,
As stated above, Judicial Notice is hereby requested of each OBJECTION raised to the
false and misleading representations of issues regarding Plaintiff s prior complaints therein. The
Magistrate Judge appears not to have read the Objections and ignored the medical good cause
NOT to make the findings alleged; No ruling on request for judicial notice issues.

Error/Abuse of Discretion Not to Appoint Counsel or Mention Good Cause Medical
Limitations: e.g. exceptional circumstances.
Sua Sponte Appointment of Counsel for good cause. Plaintiff has requested
appointment of counsel in this action with good cause appearing; yet, no such issued. Sua sponte
appointment is available under the circumstances in this case and plaintiffs limitations.
The Magistrate Judge appears to have essentially ignored the analysis for appointment of
counsel sua sponte and/or upon renewal of prior requests. If an attorney has leave to file a
second amended complaint, it is an abuse of discretion to also not give a pro se Plaintiff the right
to so amend in the same case! In fact, it is unusual that a second amended complaint is not
granted. THERE IS NOT EVEN THE MENTION OF THE MEDICAL VERIFICATION IN
SUPPORT OF LEAVE TO AMEND OR APPOINT COUNSEL, OR EVEN TO AVOID A
13

DISMISSAL FOR MEDICAL CAUSE IN CONTRAVENTION OF THE ALLEGATIONS
MADE FOR DISMISSAL! The medical circumstances in this case are exceptional
circumstances for appointment of counsel, not for the frustration of the Court; so a dismissal
must follow, where no such is even mentioned as having been filed. WHERE IT APPEARS
THAT THE MEDICAL EVIDENCE FILED UNDER SEAL WAS NOT CONSIDERED BY
THE MAGISTRATE JUDGE, ADOPTING THE FINDINGS IS FUNDAMENTALLY
WRONG, ERROR AND A POSSIBLE INADVERTENT ABUSE OF DISCRETION.
Where there is no analysis of the case on the merits of each cause, there is no recognition
of good cause not to dismiss by medical impossibility. Any one of the medical conditions or the
nexus between permanent progressive disability limitations and difficulties and ability to perform
timely within the requirements of the Court; should receive accommodation, NOT dismissal. If
this is confusion, then that too is evidence of the limitations of disability; for which, no Plaintiff
should be punished by denial of access to the court to redress serious grievances as set forth in
this action. No defendant should “get away with” their misconduct because of Plaintiff s
medical detriment. Appointment of counsel to resolve any discomfort of the Court is appropriate
and is renewed here.”
An issue is the question of whether appointment of counsel should have and should
issue in this action...Plaintiff has stated a claim sufficient to warrant consideration on
appeal for reversal of the dismissal with prejudice* grant of leave to amend and
appointment of counsel...
This case presents the Ninth Circuit with an opportunity to tell its lower courts that
persons deemed “vexatious litigants” and persons with disabilities, are still entitled to due
14

process, constitutional protections and the rights and benefits provided under the laws of the
United States and its State courts.
It is the right to proceed in forma pauperis on a proper showing pursuant to 28 U.S.C.
section 1915, that this court is urged to protect against pre-determined opinion bias of “frivolous”
attributed to pro se complaints filed by persons with disability and from the inherent “stigma”
attributed to such parties, precipitating unwarranted dismissals. It appears that instant action met
the wrongful guillotine of bias and hostile opinion pertaining to plaintiff, rather than any issue of
fact or law.

THIS COURTS NEEDS TO ENSURE THAT EFFECTS OF ILLNESS AND
LIMITATIONS OF DISABILITY DO NOT BECOME THE MEASURE OF DENYING
ACCESS TO THE COURT AND DUE PROCESS IN THIS COUNTRY; as occurred for
plaintiff in this action. Plaintiffs physicians have stated that the inability to meet court
time and other expectations is not willful; but a problem related to her medical condition
and that counsel should be appointed (See Medical Statements under Seal; in particular,
Dr. Apperson 8/23/18). The failure to appoint counsel, is also NOT a reason to dismiss an
action with prejudice. For all the harm plaintiff has suffered trying to “stand up for justice” in
exercise of civil rights under the law, a denial of review is a painful manifest injustice; essentially
saying, such abuse is warranted not only for plaintiff; but all similarly situated plaintiffs with
disability.”

15

REASONS FOR GRANTING THE PETITION

The petition is properly granted to avoid erroneous deprivation of constitutional rights,
including right of access to the court. This Court should determine that pro se plaintiffs with
severe limitations of disability and/or stigma of self representation prejudicing compliance with
court processes, receive accommodations appropriate to his/her limitations of disability and/or
appointment of counsel to assist in addressing the demands of court processes rather than suffer a
dismissal with prejudice to avoid such accommodations/leave to amend and/or to avoid indicia of
discriminatory bias.
This Court needs to ensure that effects of acute injury/illness and permanent
disability do not become the measure of denying access to the court and due process in this
County, as occurred for petitioner in this action. Petitioner’s physicians have stated that the
inability to meet court time and other expectations is not willful; but a problem related to
petitioner’s medical condition and that counsel should be appointed (See Appendix B, Medical
Verification by M.S. specialist, Dr. Apperson, dated 8/23/18) The failure to appoint counsel is
NOT a reason to dismiss an action with prejudice.
Bias precipitating erroneous reasons for dismissal under one statute in this case (42
U.S.C. 1983) without consideration of whether or NOT the argument is applicable under other
statutes (Americans With Disability Act (ADA) P.L. 101-336,104 Stat. 327 (1990), 42 U.S.C. sec.
12101 et sec.) is wrong and does not comport with the dismissal allegation that the complaint
does not state a claim. Just the opposite is true. (See Objections to Findings and
Recommendations (Appendix E(2) and Notice of Appeal (Appendix F, pre-filing argument
16

showing district court error and good faith appeal).
The reasons, facts and authority stated in the above cited Appendix E(2) and (F)
arguments are hereby respectfully requested considered herein by reason of limited time and
medical capacity to present TWO petitions within the same time period; instant 20-15646 and
20-16817; itself, a questionable decision to overburden petitioner to potentially prejudice
consideration before this court of important issues of constitutional interest that must perforce
affect all pro se litigants with disability suffering bias/stigma from effects of disability and self­
representation.
This case presents this Court with an opportunity to tell lower courts that persons
with limitations of disability and stigma as members of an underclass subject to pre-filing
orders are still entitled to reasonable accommodations in the processes of the court and are
still entitled to constitutional protections due all citizens; in order to avoid discrimination
and deprivation of rights through erroneous dismissals with prejudice denying access to
the courts for redress of good faith grievances.

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

v Fatricia AvMcColm
Petitioner
Date: July 13,2021
17

